No.

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY NOLAN - PETITIONER
vs.
COMMONWEATH OF KENTUCKY - RESPONDENT

PROOF OF SERVICE
I, Timothy Nolan, do swear or declare that on this date, 08 October, 2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR WRIT OF CERTIOTARI on each party to the above
proceeding or that party's counsel, and on every other person required to be served, by hand
deliver to prison officials for placement in the prison legal mail, todepositing an envelope
containing the above documents in the United States mail properly addressed to each of them
and with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Hon. James C. Shackelford
Assistant Attorney General
Office of Criminal Appeals
Office of the Attorney General
1024 Capital Center Drive
Frankfort, KY 40401
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 2020

TimothydNplan

fteiEIVIsJ"
OCT 1 5 2020

n

